2311 Douglas Street
Omaha, Nebraska 68102-1214

C@QCKLE

Legal Briefs

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850 No, 19-247
CITY OF BOISE,
Petitioner,

v.
ROBERT MARTIN, LAWRENCE LEE SMITH,
ROBERT ANDERSON, JANET F. BELL,
PAMELA S. HAWKES, AND BASIL E. HUMPHREY,

Respondents.

AFFIDAVIT OF SERVICE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 23rd day of September, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE THE DOWNTOWN DENVER
PARTNERSHIP IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been

served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
STANLEY L. GARNETT
Counsel of Record
JULIAN R. ELLIS, JR.
BROWNSTEIN HYATT FARBER
SCHRECK, LLP
410 17th Street, Suite 2200
Denver, CO 80202
(303) 223-1100
sgarnett@bhfs.com

Attorneys for Amicus Curiae

Subscribed and sworn to before me this 23rd day of September, 2019.
Lam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . \
State of Nebraska * Lv ,
My Commission Expires Nov 24, 2020 "

 

 

Notary Public

38549
SERVICE LIST
Parties to be Served:

Attorneys for Petitioner City of Boise
Theane Evangelis Kapur

Counsel of Record
Gibson, Dunn and Crutcher, LLP
333 South Grand Avenue
48th Floor
Los Angeles, CA 90071
tevangelis@gibsondunn.com
213-229-7726

Attorneys for Respondents Robert Martin, et al.
Michael Evan Bern
Counsel of Record
Latham & Watkins, LLP
555 11th Street NW, Suite 1000
Washington, DC 20004-1304
michael.bern@lw.com
202-637-1021
